CERTIFICATE OF COMPLIANCE
Case No. 20-234
Caption: Immigration and Customs Enforcement v.
Padilla

As required by Supreme Court Rule 33.l(h),
I certify that the document contains 8,801 words,
excluding the parts of the document that are
exempted by Supreme Court Rule 33.l(d).
I declare under penalty of perjury that the fore
going is true and correct.
Executed on December 9, 2020.

rd Press, Inc.

Sworn to before me on
December 9, 2020
NADIA R. OSWALD HAMID
Notary Public, State of New York
No. 010S6101366
ualified in Kin s County
Co
10, 023

